<html>
<title> - FULL COMMITTEE HEARING ON SMALL SMALL BUSINESSES AT THE FOREFRONT OF THE GREEN REVOLUTION: WHAT MORE NEEDS TO BE DONE TO KEEP THEM HERE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    FULL COMMITTEE HEARING ON SMALL 
                   SMALL BUSINESSES AT THE FOREFRONT 
                     OF THE GREEN REVOLUTION: WHAT 
                MORE NEEDS TO BE DONE TO KEEP THEM HERE? 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2007

                               __________

                          Serial Number 110-34

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                     U.S. GOVERNMENT PRINTING OFFICE

36-108 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DEAN HELLER, Nevada
YVETTE CLARKE, New York              DAVID DAVIS, Tennessee
BRAD ELLSWORTH, Indiana              MARY FALLIN, Oklahoma
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

                    Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               DEAN HELLER, Nevada, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                                 ______

               Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  


           Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


RICK LARSEN, Washington              LYNN WESTMORELAND, Georgia, 
DAN LIPINSKI, Illinois               Ranking
MELISSA BEAN, Illinois               BILL SHUSTER, Pennsylvania
GWEN MOORE, Wisconsin                STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          MARILYN MUSGRAVE, Colorado
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
                                     VERN BUCHANAN, Florida
                                     JIM JORDAN, Ohio

                                 ______

            Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DEAN HELLER, Nevada
HANK JOHNSON, Georgia                DAVID DAVIS, Tennessee

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


CHARLIE GONZALEZ, Texas              LOUIE GOHMERT, Texas, Ranking
RAUL GRIJALVA, Arizona               LYNN WESTMORELAND, Georgia

                                 (iii)

  


















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Chabot, Hon. Steve...............................................     2

                               WITNESSES


PANEL I
Blum, Hon. Marty, Mayor of Santa Barbara, CA.....................     4
Fenty, Hon. Adrian, Mayor of Washington, D.C.....................     5


PANEL II
Seo, Danny, Environmental Lifestyle Specialist...................    16
Genachowski, Julius, New Resource Bank...........................    18
Maxman, Susan, American Institute of Architects..................    20
Jones, Bob, National Association of Home Builders................    23
McGrew, Mary Beth, University of Cincinnati......................    25

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    39
Chabot, Hon. Steve...............................................    41
Altmire, Hon. Jason..............................................    43
Blum, Hon. Marty, Mayor of Santa Barbara, CA.....................    44
Fenty, Hon. Adrian, Mayor of Washington, D.C.....................    48
Wynn, Hon. Will, Mayor of Austin, TX.............................    51
Seo, Danny, Environmental Lifestyle Specialist...................    55
Genachowski, Julius, New Resource Bank...........................    57
Maxman, Susan, American Institute of Architects..................    61
Jones, Bob, National Association of Home Builders................    66
McGrew, Mary Beth, University of Cincinnati......................    73

Statements for the Record:
Stanford Social Innovation Review................................    77

                                  (v)

  


                    FULL COMMITTEE HEARING ON SMALL 
                    SMALL BUSINESS AT THE FOREFRONT 
                     OF THE GREEN REVOLUTION: WHAT 
                MORE NEEDS TO BE DONE TO KEEP THEM HERE? 

                              ----------                              


                        WEDNESDAY, JULY 11, 2007

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia Velazquez 
[Chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Cuellar, Braley, 
Chabot, Akin, Gohmert and Heller.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    ChairwomanVelazquez. Good morning. I now call this hearing 
to order, entitled Small Businesses at the Forefront of the 
Green Revolution: What More Needs to Be Done to Keep Them Here?
    Since the beginning of the 110th Congress, this Committee 
has considered a variety of energy-related issues. Whether it 
be renewable fuels, production or installation of equipment to 
improve energy efficiency, small businesses are making our 
world better, and building green is no exception. Today's 
hearing will explore further just how small businesses are 
playing a critical role in improving conservation and energy 
efficiency while expanding the so-called green economy.
    Entrepreneurs are leading the effort to combat global 
climate change by taking steps to reduce energy consumption. 
One of the major developments over the last decade has been the 
profound growth of building green. Green buildings are 
environmentally responsible, economically viable and healthier 
places to work and live. It started out as a novel concept that 
seemed to be out of reach for many. Now firms across the 
country are looking for ways to incorporate these practices and 
achieve certification. Due to this growth, it will soon become 
the norm to have an energy-efficient and environmentally 
sensitive building or home.
    As installers of solar panels, inventors of bio-based 
products or the architects who create the designs, small 
businesses are responsible for much of the rapid growth in 
green homes and buildings. The National Association of Home 
Builders, who have representatives here today, reported a 20 
percent jump last year in home builders focused on 
environmentally responsible construction. It is estimated that 
some 50 percent of all builders will produce at least some 
homes using green methods by the year 2010.
    Our first panel shows how the government can play an 
effective way in encouraging further innovation in green 
infrastructure. These mayors have been at the forefront and 
have put in place policies that have allowed small firms to 
flourish in their communities while protecting the environment. 
They have provided educational tools, financial incentives and 
an overall structure that makes a green small business 
economically viable. I look forward to their insights on these 
successful programs and how the Federal Government may be able 
to provide similar assistance.
    This Congress has already started taking steps to ensure 
not only are we creating domestic supplies of clean energy, but 
that the Federal Government can reduce overall consumption. The 
Small Business Committee has passed four pieces of legislation 
that provide education, financing and resources on energy 
efficiency and production. I look forward to hearing about what 
policies have been successful and if there are additional 
reforms needed to ensure future growth.
    I appreciate both mayors for coming here today, and I am 
really very grateful for the insights that you will be 
providing to this Committee. And now I yield to the Ranking 
Member Mr. Chabot for his opening statement.

                OPENING STATEMENT OF MR. CHABOT

    Mr.Chabot. Thank you very much, Madam Chair, and I want to 
welcome everyone here and wish you a good morning for being 
here as we examine how small businesses are leading the way in 
the green building industry. I would also like to thank 
Chairwoman Velazquez for holding this hearing and each of the 
witnesses for taking the time to provide this Committee with 
testimony, both the first and the second panel.
    I would also like to especially thank Beth McGrew from the 
University of Cincinnati for making the trip here from 
Cincinnati, which happens to be in my district.
    Constructing and operating buildings requires enormous 
amounts of energy and raw materials that create large amounts 
of waste. Where and how they are built affects the ecosystems 
around us in countless ways. The buildings themselves create 
new indoor environments that present new environmental problems 
and challenges. As the environmental impact of buildings 
becomes more apparent, a growing field called green building, 
also called sustainable building or high-performance building, 
is leading the way to reduce that impact at the source.
    Several studies have shown this type can improve energy 
efficiency. For example, recent research conducted on the 
financial ramifications and benefits of green design and 
buildings found that the up-front investment of no more than 2 
percent typically yielded life cycle savings of over 10 times 
the original investment. Another study supported reduced annual 
costs in energy and water by almost $10,000 in a 20,000-square-
foot building.
    Increased energy efficiency along with developing new 
domestic sources of energy and ensuring a diverse energy supply 
is a key component of improving our Nation's energy security. 
The practice of green building means making intentional 
decisions that positively impact energy efficiency, resource 
conservation and indoor environmental quality throughout the 
entire design and construction process. The ultimate goals of 
this thought process is to reduce operating cost by increasing 
productivity and using less energy and water, improve public 
and occupant health due to improved indoor air quality and 
reduced environmental impacts.
    Green building is a new and evolving field. Small 
entrepreneurs and businesses were at the forefront of this 
industry in the 1970s in response to the energy crisis of that 
time. Today this commercial enterprise is still evolving and 
still being driven by small entrepreneurs and businesses. It is 
well recognized that small business is the engine of innovation 
and the center for entrepreneurship. This new evolving industry 
opens up great opportunities for small businesses to be the 
trailblazers and become its future leaders.
    Since today there appears to be a valid business case for 
green building, we must ensure that taxpayer dollars are put to 
the best use. Artificially subsidizing the growth of this or 
any specific industry could cause potential problems in the 
future. If this type of construction can be cost-effective and 
environmentally friendly for builders, installers and tenants 
alike, there should be little need for congressional 
intervention. The industry will grow organically and grow 
stronger without government interference.
    While many of the goals of green building are worthwhile, I 
am similarly concerned about the possibility of legislating 
mandates, intended or otherwise, that could be costly and 
burdensome to our taxpayers and communities. That said, I do 
believe Congress and this Committee in particular does have a 
role to play in reducing impediments to the growth of this 
industry, especially so that small companies can continue to 
innovate and produce new technology that will improve the green 
building process.
    We have excellent witnesses here today both on this panel 
and the following panel to provide us with insight as to how 
this burgeoning industry is performing and provide suggestions 
to Congress that will help it continue to grow. I look forward 
to their testimony, again, both panels. And I want to again 
thank the Chairwoman for holding this important hearing, and I 
yield back the balance of my time.
    ChairwomanVelazquez. Thank you.

    ChairwomanVelazquez. And now I welcome our first witness, 
the Honorable Marty Blum. Ms. Blum has served as mayor of Santa 
Barbara since 2001. Under her leadership the city of Santa 
Barbara has instated a green building policy that requires new 
construction and major renovations for city-owned and -operated 
buildings to achieve LEED silver certification. For her work in 
helping Santa Barbara become a greener, healthier and more 
sustainable city, Mayor Blum was nominated as one of five 
finalists for the U.S. Mayors Climate Protection Award for 
small cities.
    Mayor Blum, welcome, and you will have 5 minutes to make 
your presentation.

   STATEMENT OF MARTY BLUM, MAYOR, SANTA BARBARA, CALIFORNIA

    Ms.Blum. Well, thank you, Madam Chairwoman, and I am 
pleased to be here today to represent the city of Santa Barbara 
and the U.S. Conference of Mayors. We are working very hard on 
green building, and what we would like to do is talk about how 
we encourage small businesses to become more energy-efficient 
and to explore renewable energy. I want to also share the 
highlights from a recent U.S. Conference of Mayors survey on 
climate protection efforts in cities nationwide.
    The city of Santa Barbara is focused on helping our 
community learn to be green at work and at home. We use B20 
biodiesel in our whole fleet, including the fire trucks and 
construction trucks. We purchased hybrid vehicles, and we have 
a green building policy, as you mentioned.
    With the urgency of climate change, we are working with 
businesses in climate protection. And a few years ago we formed 
a partnership with Southern California Edison and with a local 
nonprofit called Community Environmental Council, and we go 
into businesses and do inventories for them and help them be 
more energy-efficient.
    What we have found, our experience with the small 
businesses have given us some valuable insight to help them 
become more energy-efficient. In some ways it is easier for 
them to change their ways than it would be for a larger 
business because they don't have the bureaucracy. But on the 
other hand, many of them are owners who spend their time 
running the business and don't have time in their busy 
schedules to deal with energy efficiency. Many of them don't 
even own their own buildings. So it makes it very hard to 
invest in air conditioning or light fixtures that they don't 
own. Many also are marginal businesses. They are just making it 
month to month, and it is very hard for them to spend the money 
to become more energy-efficient.
    For these reasons, our partnership with Edison and with 
CEC, with our Community Environmental Council, has been very 
good because Edison has provided money for installing upgrades 
for these businesses. But we would like to encourage Federal 
assistance to businesses to encourage them to purchase Energy 
Star appliances. That would be helpful, and it would 
significantly reduce energy demand.
    To encourage the use of renewable energy, tax credits also 
should be renewed for renewable energy installations and 
maintain a stable level for long term. The uncertainty of 
changing rebates, going up and down--for example, the solar 
rebates, some years they are there, some years they are not 
there. It makes it very hard for small businesses to plan 
ahead.
    In addition to energy efficiency, we have many years of 
experience assisting small businesses with waste prevention and 
with water conservation, and we work closely with them to 
conserve water. And in Santa Barbara, we are in a semiarid 
situation, and this year has been a big drought year for us. So 
free water check-ups, landscape irrigation evaluations for 
businesses, and we give them rebates of $350 per fixture if 
they use low-flow fixtures.
    Shifting toward national, nationwide city efforts, nearly 
600 mayors--and I believe we are over 600 now--nationwide have 
joined as signatories to the U.S. Conference of Mayors Climate 
Protection Agreement, committing to reducing their cities' 
greenhouse gases by 7 percent below 1990 levels by 2012.
    The U.S. Conference of Mayors recently surveyed many of the 
mayors to learn more about their local energy and climate 
protection initiatives, and the responses were just released at 
a meeting in Los Angeles a couple weeks ago. Foremost among 
these findings for this Committee, the mayors reported that 
they would expand programs and initiatives to encourage 
individuals and businesses to change energy practices, to go 
green in commercial, residential and public buildings, and to 
promote renewable and other energy sources.
    When mayors were asked to describe how they would invest a 
new Federal block grant assistance program, here is what they 
said. They cited these things: to retrofit existing buildings, 
improve their carbon footprint; outreach to business 
communities to revamp energy-efficiency programs; to develop 
solar, water and electric programs that provide low-cost 
financing; and promotion and education to the public and 
business community.
    We know that the Nation's cities not only play a vital role 
in our national goal of energy efficiency and conservation, 
energy independence and climate protection, but it has been 
proven that there are many advantages to community-based 
solutions. And as such, I want to join my colleague here and 
underscore our strong support for the enactment of new energy 
legislation that establishes a new energy efficiency block 
grant program. It was recently approved by the House Energy and 
Commerce Committee. And, Madam Chairwoman, I would strongly 
encourage you and the members of this Committee to join with 
other House colleagues to ensure the adoption of this important 
initiative. This is the number one priority for the U.S. 
Conference of Mayors, and I thank you for this opportunity to 
address this Committee.
    ChairwomanVelazquez. Thank you, Mayor Blum.
    [The statement of Ms. Blum may be found in the Appendix on 
page 44.]

    ChairwomanVelazquez. Our next witness is our own Mayor, Mr. 
Adrian Fenty. He was elected last year to his first term as 
Mayor of the District of Columbia. As part of an aggressive 
100-day strategy, he included a number of sweeping green 
initiatives that will make the District more energy-efficient 
and environmentally friendly.
    The city of Washington, D.C., is involved in the 
construction of the first green Major League Baseball stadium. 
Prior to serving as Mayor, he was a council member representing 
the ward number 4. Welcome.

 STATEMENT OF ADRIAN FENTY, MAYOR, WASHINGTON, D.C.; AND WILL 
                   WYNN, MAYOR, AUSTIN, TEXAS

    MayorFenty. Thank you very much, Chairwoman Velazquez, 
Ranking Member Chabot, members of the Committee. Thank you for 
inviting us to testify today about the role of municipal 
government and small business in protecting the environment. I 
am especially pleased that you have invited fellow Mayor Blum 
to take part in this hearing.
    The majority of the United States population now lives in 
urban and suburban areas, and about half of the Nation's 
private-sector employees, as you all know, work for small 
businesses. This is the perfect time to take a look at how 
cities and small businesses can work together for 
sustainability. This important work has already begun in the 
District of Columbia, and I am pleased to be joined somewhere 
back there by my director of the Department of the Environment 
George Hawkins.
    As the Nation's Capital and an international tourist 
destination, our city attracts worldwide attention. My vision 
is of a municipal government that sets an example for other 
cities not only across the country, but really around the 
world. Last year we began to set an example when it comes to 
green buildings here in the Nation's Capital.
    Prior to serving as Mayor, as you stated, Madam Chair, I 
served for 6 years on the council. I joined my council 
colleagues then in passing an innovative Green Building Act, 
and my predecessor Anthony Williams signed the bill into law. 
We became the first city in the United States to require 
environmentally conscious design and construction not just in 
government buildings, but in private development as well.
    Beginning in 2012, private nonresidential buildings of 
50,000 square feet or more must meet LEED-NC 2.2 or LEED-CS 2.0 
standards. Our public buildings, including those owned and 
leased by the District government, will begin to meet these 
standards earlier and at a higher level. We have made these 
changes to our building code and will provide incentives in the 
first year of the program.
    The developer of a 50,000-square-foot building usually is 
not a small business, but small businesses rent space in these 
buildings. It will be easier for a small business to adopt 
innovations such as reduced energy consumption, grey water 
reuse, and increased recycling into its business model if the 
entire building takes part, making these practices easier and 
less expensive in the process.
    With a little help from municipal governments, small 
businesses can team up on green initiatives. This spring I 
joined a group of businesses in the U Street corridor of 
Washington, D.C., to announce their participation in the Clean 
Currents Initiative. These 10 businesses, including a bakery, 
several restaurants and a yoga studio, have formed a green 
energy-buying group. Together these small local businesses will 
buy nearly 2 million kilowatt hours of wind energy per year for 
3 years. The carbon offset from this purchase is equal to 
taking 185 cars off the road. By buying their energy together, 
the group will save at least $21,000 a year.
    Our Department of Housing and Community Development funds 
small business technical assistance for several nonprofit 
groups in the District of Columbia. One of these nonprofits, 
the Latino Economic Development Corporation, helped to broker 
the Clean Currents deal. It is the first collaboration of its 
kind in the District of Columbia, and I am pleased that my 
administration was involved in putting it together.
    The District government will continue to lead the way by 
opening what we hope will be the Nation's first LEED-certified 
baseball stadium, as you mentioned, Madam Chair, in April of 
2008. As we embark upon an aggressive school modernization 
campaign, we are looking for ways to incorporate green building 
technologies and reduce resource consumption into our 
classrooms. We hope doing so will begin to bring the cost of 
these materials and programs down. We also hope green 
classrooms will help teach the next generation of small 
business owners about sustainability.
    Chairwoman Velazquez, this concludes my prepared remarks, 
and I would be glad to answer any questions today and to work 
with you in the future on this important priority. Thank you 
very much.
    ChairwomanVelazquez. Thank you, Mayor Fenty.
    [The statement of Mayor Fenty may be found in the Appendix 
on page 48.]

    ChairwomanVelazquez. I would like to note that Mayor Will 
Wynn of Austin Texas had planned to be here today. 
Unfortunately he was unable to fly in last night due to the 
weather. I ask unanimous consent his statement be entered into 
the record. Without objection, so be it.
    [The statement of Mr. Wynn may be found in the Appendix on 
page 51.]

    ChairwomanVelazquez. I would like to address my first 
question to Mayor Fenty. As the District begins implementing 
green building standards, there are many small business 
contractors who may be looking for guidance. What are some of 
the challenges in getting these businesses up to speed on new 
requirements, and how will the city work to assist these 
contractors?
    MayorFenty. Well, that is a great question. On the 
municipal level, I think there is two impediments; one, just 
outreach. And we have had to make sure that our Office of Local 
Business Development is not only in the business of providing 
more opportunities for small businesses, but they understand 
the regulatory framework with which they have to operate. So we 
are charging our Office of Local Business Development to work 
with our Department of the Environment to get the word out to 
small businesses, and we do know that will be an enormous task, 
but we will get it done.
    The second thing is funding. I think we have to make sure 
that there are incentives available, and, to the extent 
possible, making the opportunity for small businesses to pool 
together, as we did in the Clean Currents Initiative, I think 
is a way to allow small businesses to become more 
environmentally sensitive and green without having to tap into 
their own profits and too much into the government treasury.
    ChairwomanVelazquez. Do you believe that more contractors 
are starting to voluntarily implement LEED standards on private 
construction products as they become educated about these 
building techniques?
    MayorFenty. No question about it. I went to a 
groundbreaking for a property right on the back side of Gallery 
Place by Akridge Development. It is going to be a silver LEED 
building, very advanced. And I think they are doing it, one, 
because of their own priorities for the city that they do 
business in, but, two, the Congress and, on the local level, 
the mayors have been pushing these initiatives. So the more we 
do, I think it goes to show that it is not just the substance 
of our work, but setting the example for the private sector.
    ChairwomanVelazquez. And, Mayor Blum, some have been 
frustrated with the way the Federal Government has failed to 
put green initiatives at the forefront. What suggestion would 
you offer in creating new green policies at the Federal level 
that can encourage the private sector to implement more 
environmentally friendly practices?
    Ms.Blum. Sure. It has been a couple years now that the 
mayors have been working on this. I think it was in 2005 when 
we first started working on climate change agreement, and we 
have all taken it back to our cities and worked very hard. So 
there are a lot of things already in place in various cities 
all over this country. And it would be good to share the best 
practices which we are doing at the mayoral level, but it would 
be useful for you to know what are the best practices going on 
in the big cities and small cities alike.
    The small businesses are a little bit different because we 
don't have an environmental person or, you know, someone in 
charge of the buildings. But we can work closely with our 
builders association, with our contractors, with our AIA, with 
the architects, and we are doing that, and that makes a big 
difference.
    But you asked what the Federal Government can do to focus 
on this, and I think you are already doing it, having this 
hearing. And we are starting to see some real differences 
coming along in Congress. Hopefully--the energy block grants is 
something we are really pushing, and hopefully if you make 
climate change a priority, and you talk about the green 
buildings and green initiatives all over the country, then you 
can find some money to appropriate for it, and I know that is 
difficult. But it depends upon what your priorities are, and if 
you can show us what your priorities are by showing us the 
money, that works.
    ChairwomanVelazquez. Thank you. Thank you. It takes money. 
We all know that. It is a matter of priorities.
    Ms.Blum. Yes.
    ChairwomanVelazquez. Mayor Fenty, we know that the 
celebration of the D.C. Nationals new baseball stadium is to 
take place later today, and the green stadium is the first 
major stadium to try an acquired LEED certification. What 
example does this set for large construction projects 
throughout the Nation? Can you talk to us about the experience 
of getting this project done this way?
    MayorFenty. Well, I think it sets a number of different 
strong precedents; one, that these real public-private 
projects, like baseball stadiums, that if the public is going 
to put forth dollars, then they have to be beneficial to the 
community. And this one is for lots of reasons, including the 
economic development. But the green initiatives that are going 
to come out of having a LEED-certified stadium to that area, it 
is a brownfields area, of course. It has been blighted for 
years, and we haven't taken care of the area. As this being the 
anchor for the redevelopment, I think it is going to show other 
developers coming in, and we have some great developers working 
there, that we also want them to create green buildings that 
are LEED-certified.
    I also just want to note, as with a lot of other stadiums 
across the country, this one is being built on the banks of a 
river. This is being built on the banks of the Anacostia River 
here in Washington, D.C., which is historically polluted. And 
by saying that we are sensitive to the run-off that comes out 
of this stadium and buildings near it, and the impact it has on 
the river, I just think that it is a great substantive and 
symbolic way to show how cities are being revitalized, and 
hopefully it will be a national model.
    ChairwomanVelazquez. Can you talk to us if you know or if 
you are aware of any of the materials being used in the 
construction of this stadium?
    MayorFenty. You know, that is a great question. I am not as 
good on the materials. We would be glad to provide that to the 
Committee.
    ChairwomanVelazquez. Sure.
    MayorFenty. But I know that one of the great focuses of 
this project has been to make sure that we reduce the run-off 
into the Anacostia River and keep everything sustained within 
the building. But we will get that to the Committee, because 
again, this is the first of its kind.
    ChairwomanVelazquez. Thank you.

    ChairwomanVelazquez. And now I recognize Mr. Chabot.
    Mr.Chabot. Thank you very much, Madam Chair.
    Mayor Blum,if I can go to you first. You had expressed 
support for tax credits concerning renewable energy and making 
them permanent, and I completely agree with you in that 
respect. And one of the biggest impediments to economic growth, 
as you know, can be uncertainty in the Tax Code and not knowing 
what incentives will be there 2 or 3 or 4 years down the road. 
And unfortunately it can really put the breaks on development.
    Could you again maybe expound upon that idea a little bit? 
And I would say this goes beyond even this topic today. We have 
a tendency in the Tax Code in all areas to make things there 
for a couple of years, and we really, I think, need to make a 
lot of these tax cuts, whether they be credits or deductions, 
permanent so people can rely on them in the long term. But 
specifically with respect to this area that we are discussing 
today, could you expound upon that a little bit?
    Ms.Blum. Sure. We have found that small businesses, as I 
said, sometimes are very marginal, and sometimes there are 
families working together to open a restaurant, and they don't 
have a lot of extra money, and they don't have a lot of extra 
time, but what they do have are some hopes for the future. And 
they can make plans for the future. But sometimes it is not 
just this year. Sometimes they say, well, in 5 years we would 
like to whatever, put solar panels on or buy more energy-
efficient appliances or whatever it is, but they just don't 
have the money together right now. But by the time they get it 
together, the tax credits have changed or the solar credits or 
whatever it is, and then you wait out another 5 years to hope 
they come back. And I think it makes it very, very difficult to 
run a small business, and I am talking about the real small 
businesses, when you don't have assurances that government will 
stay the same, as you say, that they will be the same year 
after year so that when you finally do pull together the money 
and make that commitment, you can get some tax credits on it. 
So I just think it is vital.
    Santa Barbara has about twice as many small businesses for 
its size than other cities because we are a small city, we are 
90,000 people, and each one of those small businesses needs 
some kind of certainty in their taxes, in their--what kind of 
solar credits they can get, what kind of tax credits they can 
get. And it is just vital for them to have that.
    Mr.Chabot. Thank you.
    You had also mentioned, which I found interesting, that 23 
percent of Santa Barbara's electrical energy is currently 
derived from renewable sources. What are the prospects for that 
in the future? Is there a way to expand that even more? And 
what realistically with today's technology could your goals be?
    Ms.Blum. Sure. With our inventory, we were really surprised 
that we were already at 16 percent. We just had no idea. And I 
think when people do an inventory of what they are doing, they 
will find that they are doing a lot more than they even know. 
Their own departments are trying, and people at the grassroots 
level are really working on this.
    But what really gave us a boost was that instead of the 
flare-off at the wastewater treatment plant of methane gas, we 
usually just fired it off into the air, we capped that and put 
it into a fuel cell. And you had better not ask me any more 
than that because I don't know. You put it into this magic box, 
and it comes out electricity, and I think it is wonderful. And 
then we use that for the plant itself, saving us about $35,000 
a year, which doesn't sound like a lot to you, but to us it is 
huge. And that pushed us up over 20 percent alternative fuels. 
And we are also capping the methane out at our landfill.
    We can see--you asked us about the future. That was without 
really trying very much, and now we are really working in each 
of our departments. And I can see us getting up to 50 percent, 
but not while I am probably alive, but in the next 20 years, 30 
years, I can see us getting up there. And it would be wonderful 
if we could even get to 100 percent. But we are going to need 
some help on research and development for that.
    Mr.Chabot. Okay. Thank you very much.
    Mayor Fenty, could you explain the mechanics of the U 
Street corridor's buying of wind energy? And basically how does 
the power generated in wind get sent specifically to these 
businesses? And one other thing. You had mentioned rainwater 
being incorporated in the planning for buildings, and how that 
can be part of the overall plan and being more energy-efficient 
and utilizing resources which are essentially free. Could you 
discuss those two aspects, please?
    MayorFenty. Yeah. I will do the best I can. I was even at 
the press conference on this Clean Currents Initiative, but it 
is wildly technical. It is my understanding that the 10 
businesses together buy energy, and that they buy enough 
kilowatt energy to last for 3 years, and that the energy is, 
thus, more efficient than normal, such that it saves the 
District of Columbia and these businesses the carbon offset 
amount of about 185 cars. So they pool together, purchase it, 
they get it for less, savings are about $21,000, and they use 
it for 3-year periods.
    And so that is the extent of my knowledge on it. But we can 
get you more specifics by working with our Department of the 
Environment and our local business office.
    And then I think your question was about stormwater run-
off. Again, along the Anacostia, one of the great pollutants is 
from the businesses. We have a lot of work to do in making sure 
that we don't have a combined sewer run-off into the Anacostia. 
But one of the things that we know is that just literally the 
run-off from the buildings carries all kinds of pollutants into 
the Anacostia River.
    And, Madam Chair, I actually do have in my notes some of 
the things that are going to be in the stadium. Note for 
officials like myself, check your staff notes. This stuff is 
usually there. There is going to be garages that feature 
special parking for energy-efficient cars and car pools, water-
conserving plumbing fixtures, energy-conserving light fixtures 
including the field lighting. Construction materials will 
include a minimum of 10 percent recycled content, and adhesives 
paints and glues will be low VOC. And then, of course, the 
intricate stormwater management system, which I suspect is like 
a lot of the green buildings you see where the water is kept in 
the building on the roof, and then it helps to cool the 
building, and then they will find various different ways to 
actually reduce the water on site.
    Mr.Chabot. Thank you very much, Mr. Mayor.
    MayorFenty. Thank you.
    ChairwomanVelazquez. Mr. Gohmert.
    Mr.Gohmert. Thank you, Madam Chair. Appreciate the hearing, 
appreciate you all being here.
    And just following up on that and the comments, Mayor Blum, 
you had made, too, about needing the consistency. I was struck 
because, you know, bio mass itself has proved to be a valuable 
source of alternative energy, and people do need that 
consistency from the Federal Government, and yet just in the 
last month in Resources Committee we had a law, Federal law, 
that was going to move forward, provide incentives to utilize 
bio mass as an alternative energy source. And, of course, it 
was against my vote, but the Majority passed a bill that would 
pull that program back and not start the incentives and do what 
the government seems to do best, and that is do a study for a 
number of years more to see whether bio mass would be helpful, 
and then come back and look at the grant. So it really yanked 
the rug out from a number of communities in my district and 
others around that couldn't be characterized as Republican or 
Democrat, just communities, many of them probably majority 
Democrat. But it sure was a surprise to them. So I guess it 
shouldn't be a surprise that if there is one entity you know 
you can always not count on, it is probably the Federal 
Government, you know, at the times it is most critical.
    Veering just a little bit because of a recent issue over--
well, it is not a recent issue, it is a long-term issue, Mayor 
Fenty. But I am curious, with regard to the issues, whether it 
is green structures, environmentally friendly structures, I 
will also come back to the issue. And I filed a bill. I felt 
like the easiest way without a constitutional amendment to get 
Washington, D.C., with proper representation not only in the 
House but in the Senate would do what was done over 150 years 
ago with land on the other side of the Potomac where it was 
just ceded back to Virginia. So I consulted some folk. I had 
not talked to you, but I have filed a bill. I am curious, since 
I have you here, how you would feel about having land that was 
not occupied by a Federal building ceded to Maryland and making 
it a part of Maryland, as was done with the land across the 
river for Virginia?
    MayorFenty. Well, let me just say that I would be lying if 
I didn't admit that there are District residents who probably 
do support such a plan, and there probably are some in 
Maryland. It is my experience in having lived here for some 
time and been an elected official now for over 6 years that the 
majority of residents, both in the District and in Maryland, 
are--just for no other way to say it--are just set in our ways, 
as every one of your constituents probably are. You have become 
accustomed to the jurisdiction being established as it is. And 
there now is an identity of being in Washington, D.C., that 
probably would make that difficult for most of our residents 
and, again, most Maryland residents, I think, to support.
    That being said, our administration, and I think most 
people in Washington, D.C., are very open towards continuing 
the dialogue. We want to thank Congress for supporting the 
legislation that is now before the Senate to give Congresswoman 
Norton a vote on the House floor. We think that is a great step 
forward, and there are lots of different alternatives we can 
explore going forward, and we just appreciate the interest in 
the subject because it will make a big difference on us being 
able to lead on so many different issues like the environment 
and small businesses.
    Mr.Gohmert. Well, my big concern was since I agreed with 
the Democrats that led the charge back in the 1970s that it 
requires a constitutional amendment, and even if that were to 
pass the Senate, become law, it would likely be struck down. I 
was trying to cut to the chase and get you that representation 
sooner.
    MayorFenty. Thank you.
    Mr.Gohmert. Thank you for your efforts. You are the Mayor 
of the city that we all have a vested interest in, so we 
appreciate your work on all of our behalves.
    MayorFenty. Thank you for your support.
    ChairwomanVelazquez. I have another question for Ms. Blum. 
You mentioned that one of the challenges to encouraging small 
businesses to invest in energy-efficient appliances is that 
many storefront and businesses rent their properties. As such, 
they may not realize the long-term cost savings. A related 
program is that businesses who rent do not receive the tax 
treatment of building owners when it comes to these home 
improvements. Do you think that if Congress were to offer 
similar tax treatment for small business renters that this may 
encourage more to invest in energy-saving technologies?
    Ms.Blum. Thank you for mentioning that because that would 
make a big difference in our city. We have--58 percent of our 
residents are renters, which is huge compared to most cities. I 
think most cities have about 70 percent ownership. So here we 
are with that. And then also businesses, I think--and don't 
hold me to this--but I think it is in the 70 percent of the 
people who are renting the places where they are having their 
business. And I think if you could somehow tie it to the 
businesses instead of to the actual building, it would make a 
big difference to the small businesses for sure.
    ChairwomanVelazquez. Mayor Fenty, would you like to 
comment?
    MayorFenty. No question. I think in the District of 
Columbia, like our dwellers, the businesses probably just are 
in staggering numbers in the amount that actually rent. So I 
think what you would see is you would have a lot more buy-in 
participation amongst businesses going green, and we would love 
to be able to--I think establishing some type of pilot for 
rental businesses, especially very small ones, would go a long 
way in moving the agenda.
    ChairwomanVelazquez. Mr. Heller? No questions?
    Mr. Cuellar.
    Mr.Cuellar. Thank you. Just a general question. When you 
look at the endeavor that I think we are all interested in, 
that is trying to get our cities and our Federal buildings and 
other office buildings green, we can make efforts. But if you 
look at the big picture, it is one building here, a couple 
buildings here. How do we do the mass education of the public, 
which is, I think, the hardest part of doing it? I mean, how do 
we get somebody on 6th Street, kind of like where I live, right 
across from the Eastern Farmers Market, how do you get folks 
there that are so busy with their daily lives or interested in 
other things, how do we get them to that point?
    I guess that is the hardest thing. We can appropriate 
certain dollars, or we can say here at the Capitol, under 
Pelosi, we will start turning green, and we can get several 
Federal buildings, you can do certain municipal buildings. But 
how do you get the mass amount of folks to do that? And I guess 
that is the hardest question that I can think of.
    MayorFenty. Let me just say, Mayor Blum mentioned, I think, 
how important incentives are. She has been a mayor longer than 
I have. I can tell you that the Federal dollars that do come 
down for tax credits and such are really paid attention to by 
the small business community. We have got a really vibrant one 
here in the District, represented by the Chamber and the Board 
of Trade, et cetera. So I have no question that as dollars are 
appropriated, the businesses will suck them up and use them for 
environmental priorities.
    I would also say that--we had to play with this when we 
passed the Green Building Act, how much of a stick, how much of 
a carrot do you use? And I think we came up with a very good 
compromise. We are not mandating every business to do it no 
matter what, but enough of a stick that people will pay a 
little bit more attention. And I think there may be something 
there on the Federal level there as well. You explore 
legislation. For some businesses you have got to meet certain 
standards, and the way to do that is by going green.
    Mr.Cuellar. So the incentives--for example, give me some 
examples of a stick. Examples of a carrot would be the tax 
incentives.
    MayorFenty. Exactly.
    Mr.Cuellar. A stick, moderate use of a stick would be what?
    MayorFenty. I think if your building produced a certain 
amount of run-off or wasted energy, then you would probably 
then have to--then you would have to pay some type of 
additional fee or cost to the Federal Government, or if you 
wanted to do it through the local government. I think those are 
ways to explore. And again, it is more of a consciousness-
raising issue. But once you do it from the bully pulpit, people 
pay attention.
    Ms.Blum. If I can add, too, one of the incentives we have 
found helps is that if you are going to use green practices, 
you can go to the head of the line when you are trying to get 
your permits. And that is real simple for us. But there is a 
scramble to get to the head of the line right now because 
people would rather not have to spend months and months and 
months; instead, a couple weeks would be much easier on their 
business. So that is a big incentive for us.
    And the other thing is almost anything that we do in local 
government, we look for a tipping point, because about 75, 80 
percent of the people need to be educated or need to start to 
feel it, whatever it is. And then when you have got them with 
you, you have got it. And I think the green building, at least 
in Santa Barbara, is at the tipping point. It is doing very 
well because our contractors association is all with it so that 
when you go to hire somebody to put in a window at your home, 
they are going to talk to you about green building, because 
then they can go to the front of the line.
    So I just think that--we are starting a general plan update 
where we go out to the community, and we have had four 
community meetings. I was amazed at how much of the community 
is talking about green buildings and making things more 
walkable and livable, and it is very refreshing to know that 
what you say in speeches actually is starting to come back at 
us.
    Mr.Cuellar. And if I can just--last point. It is true, I 
think, now the word has been at least raised to a point, 
because I come from Texas, and it is a big oil State, but now 
in Texas we are talking about the alternative fuels. We are 
looking at green buildings, which is something that years ago 
we had never heard before--well, we had never really talked 
about it on a practical basis on that.
    Madam Chair, thank you very much. Thank you.
    ChairwomanVelazquez. Mr. Chabot.
    Mr.Chabot. Yes, I just had a quick question.
    Mr. Cuellar kind of raised this in my mind. When we talk 
about the sticks and the carrots, would you both agree as 
mayors, and being obviously in charge of, you know, cities and 
part of the government, et cetera, would you agree that it 
ought to be our goal to ultimately use as few sticks as 
necessary and maybe try to use the carrots as much as possible, 
tax incentives, and ultimately rely upon small businesses and 
entrepreneurship and common sense to develop technology which 
makes economic sense so that you are building--the green 
building occurs because it makes economic sense to do it, 
because we have advanced beyond the need to use sticks, you 
know, against businesses and make them do things. They will 
want to do them because it makes economic sense to do them. 
Would that--
    Ms.Blum. We are seeing that right now. When we cut the 
methane gas off our wastewater treatment center and put it back 
to the fuel cell, and then we found we were saving $35,000 a 
year, we had no idea we would be saving that much money. So it 
was an eye opener. And then we started looking for other things 
we could do. I think businesses are the same way. If they can 
save money, if the payback is in--I will say 5 years or less, 
that is wonderful. Then they will want to do it. Otherwise if 
the payback is in 30 years, awfully hard to get a small 
business to do that.
    Mr.Chabot. Mayor Fenty, I think I saw you nodding as well.
    MayorFenty. Absolutely. I think we are in the business of 
spring economic developments, so we have to keep sticks to a 
minimum and incentives to a maximum. And I think that this is 
one of the industries and initiatives where the private sector 
sees the rewards as benefits, because if you own a big office 
building, and you make it green, I think your tenants want to 
come into a building like that.
    When we were responding to the Congressman's question, I 
think there is a role for the government, though, even in just 
setting standards in a law, because while you don't necessarily 
have to mandate someone to comply, but the setting of standards 
itself raises the awareness of this in a macro way that--and I 
think you then expedite the country going green. So I just 
wanted to have that on the record, that whatever comes out of 
Congress I think is paid attention to on the local level more 
than you may have even known.
    Mr.Chabot. Thank you very much. I yield back.
    ChairwomanVelazquez. That was a great closing, by the way.
    MayorFenty. Thank you.
    ChairwomanVelazquez. With that, I want to take this 
opportunity once again to thank you. I know that you have a 
busy schedule. You took time to be with us, and for that we are 
very grateful. This first panel is excused.
    MayorFenty. Thank you.
    Ms.Blum. Thank you.
    ChairwomanVelazquez. We welcome the second panel to take 
your seats.
    We are going to move with the second panel. Our first 
witness is Mr. Danny Seo. He is the author of several books 
that encourage Americans to live green lifestyles by offering 
eco-friendly home design suggestions. At the age of 12, he 
founded Earth 2000, which was the country's largest teenage 
activist charity. Through his books, how-to lifestyle, weekly 
Sirius satellite radio program and companion TV show, Mr. Seo 
promotes his widely popular Simply Green lifestyle philosophy.
    Mr. Seo, you have 5 minutes to make your presentation. Your 
entire statement will be entered into the record.

STATEMENT OF DANNY SEO, ENVIRONMENTAL LIFESTYLE EXPERT, AUTHOR 
                        OF SIMPLY GREEN

    Mr.Seo. Thank you. Good morning, Chairman Velazquez and 
members of the Committee. Thank you so much for having me this 
morning.
    As you mentioned, I am an environmental lifestyle expert. 
And I am sure you are probably thinking, if I had a nickel for 
every time I met an environmental lifestyle expert, you would 
have a nickel. But my company produces media content that gives 
a how-to content information to millions of Americans.
    Through our television programs, books, magazine columns, 
products and partnerships with both large and small businesses, 
my personal goal has always been one thing: to show Americans 
how to live a greener life that is simple, stylish and, most 
importantly, accessible.
    My testimony today will address several points. One, the 
green revolution is more than just a trend, which is key; 
number two, how small businesses can compete with major 
corporations; and three, what needs to be done to help small 
business in their quest to go green, which I think is probably 
the most important point.
    First I want to talk about the movement. There are two 
movements going on in consumer tastes and interests. What I 
believe we are seeing at the consumer marketplace is a major 
shift; it is a cultural one where consumers are looking for 
products and service that gives value to their lives, their 
homes, their families and their community. It is all about 
quality, not quantity. What we are seeing is what I call the 
meaningful life. It is if our lives, our homes, our family, 
community we live in aren't disposable, then the products we 
use in our everyday lives shouldn't be either. And as we see 
this rejection of cheap goods and services and the emergence of 
green and sustainable living at the crossroads, what we have is 
something that is very interesting. Going green is more than 
just better for the planet. It represents good quality and 
value.
    Now, there has been a lot of attention in the media lately 
about major corporations and manufacturers going green and how 
it might affect small businesses. It rhymes with sprawl mart. 
But small businesses should welcome the green revolution. Here 
is why. Going green is not like adapting quickly to consumer 
tastes and fashion trends. It is a philosophy rooted in the 
very big idea of saving the planet. So as consumers seek out 
green products, they will want what is really, truly the real 
deal. They want authenticity. A smaller business can create a 
corporate DNA that has sustainability through and through, 
while larger corporations struggle because of their size.
    So I am going to use the cleaning category as an example. 
Global companies like Procter & Gamble and Clorox have a 
stronghold on the cleaning industry. They also don't have a 
history of creating nontoxic products. You just have to look at 
the warning labels. At our small company called Method--it is a 
small company I recently partnered with, who took the drudgery 
idea of cleaning one's home and actually made it fun by making 
products that are nontoxic and packaged in fresh containers 
with bright colors and pleasant scents. Method, a cleaning 
company, even has thousands of fans called influencers who 
volunteer their time to spread the marketing message of Method 
to others. Seriously, when was the last time you heard of 
someone joining a Clorox bleach fan club?
    So as major retailers are going green, they need a company 
like Method to stock their shelves. These retailers can't turn 
to a global manufacturer to simply invent a green product. It 
would be inauthentic and without any trace of green DNA. So how 
do the small business owners concerned about the environment go 
green? Here is a few ideas.
    First I think one solution is to create an interactive Web 
site which gives small business owners a handful of useful 
suggestions, 10 or 20, to help their everyday business needs go 
greener. It could be anything from ideas on choosing energy-
efficient lighting, buying green power for their office, to 
tailored resource listings that help set up a recycling system 
for their office. There could be a primer of what going carbon 
neutral actually means, a way of calculating what their current 
output is and tips on reducing and neutralizing their 
footprint. The program would not be dissimilar to the 
Environmental Protection Agency's Energy Star program Web site, 
which is basically an interactive Web site giving homeowners 
tips on conserving power.
    Another idea is to create a certification program that 
gives small businesses official recognition for going green. 
This could be modeled after the LEED program, which is a 
program of the U.S. Green Building Council. In the LEED 
program, buildings that are designed in an environmentally 
sound manner could submit their designs to the council for 
certification. Those who meet LEED requirements are then given 
ranks ranging from gold to silver to platinum, with platinum 
being the highest, or in this case the greenest. Small 
businesses who adopt green practices could apply for a new 
certification and use the achievement as a marketing tool. 
Since they will need to prove they are, in fact, practicing and 
adopting green practices through a certification program, 
receiving such an honor can be used as a real marketing tool to 
differentiate themselves in a crowded field. Earning this 
certification will help a small business prove their green DNA 
to the consumer.
    In conclusion, small green businesses need to continue on 
the paths they are leading now. Innovative new products, good 
service and great design and the green space will help them 
thrive and profit. Assistance in educating small business 
owners who want to go green about practices in everyday action 
will go a long way. Taking steps to go green will help these 
businesses create a foundation of business practices that will 
go a long way to earning the trust and dollars of the American 
consumer.
    Thank you so much.
    ChairwomanVelazquez. Thank you, Mr. Seo.
    [The statement of Mr. Seo may be found in the Appendix on 
page 55.]

    ChairwomanVelazquez. Our next witness is Mr. Julius 
Genachowski. He is the cofounder of New Resource Bank in San 
Francisco, California. The New Resource Bank is one of the 
Nation's first commercial banks to offer financing aimed 
specifically at green businesses. Mr. Genachowski is also the 
founder and managing director of Rock Creek Ventures, an 
advisory and investment services firm. Prior to his current 
position, Mr. Genachowski was chief of business operation and a 
member of the Office of the Chairman at IAC InterActiveCorp.
    Welcome.

STATEMENT OF JULIUS GENACHOWSKI, COFOUNDER, NEW RESOURCE BANK, 
                   SAN FRANCISCO, CALIFORNIA

    Mr.Genachowski. Thank you. Thank you for inviting us to 
testify. I am testifying as a cofounder of New Resource Bank, a 
new and innovative bank with a mission of providing financing 
and other banking products to businesses serving the broad goal 
of environmental sustainability. New Resource Bank, the 
country's leading commercial green bank, provides banking 
services to clean-tech, renewable energy and other businesses 
bringing to the market resource-efficient, healthy and 
environmentally friendly products. The businesses with which we 
partner, generally small businesses, are creating jobs 
contributing to U.S. economic growth and helping solve some of 
the Nation's most challenging problems.
    Our belief is small businesses need banking partners who 
understand the category, their business models and their needs. 
We opened our doors at New Resource Bank with our first branch 
in San Francisco last November. It has quickly grown to 100 
million in assets, more than quadrupling in size from launch. 
We started work a number of years ago when there was broad 
skepticism that the words "green" and "business" could be used 
in the same sentence. Today there is a growing consensus that 
resource efficiency is not only a commercial opportunity, but a 
national imperative. We commend the Committee for holding this 
hearing and for its other work in this area.
    My written testimony describes some of the founders and 
investors, initial investors, in the bank, which include some 
of the country's leading entrepreneurs: Mitch Kapor, who 
developed Lotus Development; Bob Epstein, cofounder of Sybase; 
Lisa Gansky, cofounder of Ofoto.
    To date New Resource Bank financing has been applied to put 
solar energy systems on roofs, construct energy-efficient 
buildings, helped entrepreneurial businesses expand. In the 
solar arena we introduced financing that makes conversion to 
solar power as easy as possible for both small businesses and 
homeowners. They can use our financing to get solar energy with 
no money down by simply paying a monthly bill that is roughly 
the same as a utility bill.
    We have also structured loans that encourage real estate 
developers to build green by providing a lower interest rate 
and potentially higher loan-to-value for projects built to LEED 
levels and energy efficiency and environmental design, and we 
deployed our capital to help small businesses pursuing 
strategies based on sustainability.
    Some examples of small business customers to which we 
provided an expansion capital or other banking services are 
Solaria, a solar technology company developing products that 
improve the efficiency and reduce the cost of solar cells with 
the goal of allowing solar energy to compete effectively in the 
market; Sustainable Spaces, which provides monitoring and 
retrofit services to help small and medium-size businesses 
improve energy efficiency, reduce utility bills and improve 
work environments. Revolution Foods provides schools with a new 
food service option that replaces junk food with nutritious and 
good-tasting alternatives, part of a sustainable solution to 
our health issues; Cowgirl Creamery, a cheese maker that is 
crafting award-winning cheeses with organic and sustainably 
grown ingredients, which just expanded to the District of 
Columbia with a store on S Street.
    We believe there are opportunities for our government to 
promote the efforts of small businesses like these, giving 
young businesses a chance to succeed and helping accelerate 
their growth.
    Today, of the Federal support that exists for alternative 
energy, a good deal is accessible namely by larger businesses 
and projects, such as those targeting coal gassification, 
large-scale renewable energy production and nuclear energy. 
Small businesses will be a key source of innovation and job 
creation in this area.
    Some of the opportunities for Federal action are captured 
in H.R. 2389, the Small Energy-Efficient Business Act, and we 
applaud this Committee for its work on this bill. SEEBA 
includes sensible modifications of existing SBA loan guarantee 
programs like SBA 7A and the 504 program; an expansion of the 
Small Business Investment Corporation; and a creation of a 
renewable fuel capital investment program. We support these 
measures as smart and efficient ways to increase the flow of 
private capital to small businesses developing or requiring 
energy-efficient technologies.
    We would like to offer two comments on SEEBA based on our 
experience at New Resource Bank. First we recommend that the 
provisions offering more flexible loan terms, such as those 
applied in 504 loans, be expanded to include more categories of 
business. As we understand it, the bill now applies to 
manufacturing businesses, and we encourage the inclusion of 
small businesses in other categories as well, such as 
agriculture, real estate, construction and transportation, if 
they meet the standards in the bill for developing or acquiring 
energy-efficient technologies.
    Secondly, we suggest a clarification of the more flexible 
loan terms provided by SEEBA so that they are not limited to 
renewable fuels. We believe the intention of the bill is to 
support small businesses involved in a broad range of 
alternative energy, not just renewable fuel. We read the 
definitions of the bill as consistent with that, but a 
clarification may be in order.
    We also recommend that the Committee consider changing the 
name of Renewable Fuel Capital Investment Program to the 
Renewable Energy Capital Investment Program to make this 
clearer.
    We suggest Congress consider tax credits for renewable 
energy, providing clarity for small businesses. We would 
recommend Congress to consider updating commodity support 
payments in the farm bill to encourage renewables and 
sustainable production. The U.S. agriculture industry is 
increasingly embracing the business opportunities provided by 
our need for alternative energy. We encourage Congress to make 
sure the commodity support system doesn't discourage renewable 
fuels on farmland, and that it specifically encourages 
renewable fuel production.
    We also offer our perspective on the debate over measures 
to limit greenhouse gas emissions. We believe economy-wide 
carbon emissions limitations will provide a clear signal, 
spurring investment in commercial solutions to our energy 
needs. We think small businesses would benefit from clear 
regulation in this area as opposed to vague rules that are hard 
for them to plan on.
    ChairwomanVelazquez. Mr. Genachowski, would you be able 
to--
    Mr.Genachowski. Final comment. I speak as not a cofounder 
of New Resource Bank, but a depositor. Our initial capital of 
24-1/2 million came not from a few institutional investors, but 
from about 200 individual investors that has been exceeded by 
funds provided by our depositors, over another 75 million more 
in capital that New Resource Bank can deploy in support of its 
mission. Our depositors are attracted by our great service and 
product features like free worldwide ATM access. But my last 
note is they have also come to our bank from around the 
country, Colorado, Illinois, New York, Missouri, Oregon, Texas, 
Virginia, Wisconsin, Washington State and here, District of 
Columbia. Whether they are from red or blue States, they want 
to bank green.
    Thank you for the chance to give this testimony, and New 
Resource Bank looks forward for the opportunity to work with 
the Committee in developing legislation in this area.
    ChairwomanVelazquez. Thank you.
    [The statement of Mr. Genachowski may be found in the 
Appendix on page 57.]

    ChairwomanVelazquez. Our next witness is Susan Maxman. She 
is the principal in the firm of SMP Architects, located in 
Philadelphia, Pennsylvania. Her firm offers a full range of 
architectural services, and they have been a leader on green 
design.
    For her contributions to the profession, Ms. Maxman has 
received honorary degrees from Ball State University and 
University of Detroit-Mercy, and in 2007 was the initial 
recipient of the American Institute of Architects, 
Philadelphia, Thomas Walter Award. She is testifying on behalf 
of the American Institute of Architects where she previously 
served as president. AIA represents the professional interest 
of over 80,000 members.
    Welcome.

  STATEMENT OF SUSAN MAXMAN, OWNER, SUSAN MAXMAN & PARTNERS, 
 ARCHITECTS, PHILADELPHIA, PENNSYLVANIA, ON BEHALF OF AMERICAN 
                    INSTITUTE OF ARCHITECTS

    Ms.Maxman. Thank you, Madam Chairwoman and members of the 
Committee. Good morning.
    Since nearly half of the AI members own or work for small 
firms, we appreciate all the Committee does for small 
businesses. Thousands of small businesses across the U.S. are 
realizing the economic benefits of going green. As and 
architect who has devoted much of my career to making the 
environment much more energy-efficient, I am gratified to see 
how this issue has taken center stage in Congress and across 
the country, but I also see there is much more to do.
    According to the Department of Energy, buildings and their 
construction are responsible for nearly half of all greenhouse 
gas emissions produced in the U.S. every year. DOE reports the 
building sector accounts for 39 percent of the total U.S. 
Energy consumption, more than both transportation and the 
industry sectors. The same study found that buildings in the 
U.S. Alone account for 9.8 percent of carbon dioxide emissions 
worldwide. That equals nearly the same amount of carbon 
emissions of all sectors of Japan, France and the United 
Kingdom combined, which is startling.
    The data shows the building sector's impact on the 
environment will only grow over the coming decades. Currently 
U.S. building stock sits at 300 billion square feet. Experts 
predict that between now and 2035, 52 billion square feet will 
be demolished, 150 billion square feet will be remodeled, and 
another 150 billion square feet will be newly constructed. If 
the United States wants to be the world leader of energy 
efficiency, our buildings must be a significant part of the 
discussion.
    That is why the AIA has adopted a position stating that all 
new buildings and major renovations to existing buildings be 
designed to meet an immediate 50 percent reduction in fossil 
fuel-generated energy, with further reductions in 2030 when all 
new and renovated buildings should achieve carbon neutrality. 
The Senate responded to our call by requiring all new Federal 
buildings to meet these goals as part of their recently passed 
energy bill. The House Committee on Oversight and Government 
Reform has approved similar legislation.
    Building green is critical to the effort to address 
greenhouse gases and reduce our dependence on foreign sources 
of energy, but has another equally important benefit. It is 
good for business, especially small business. By using energy-
efficient building systems and technologies, businesses can 
reduce monthly energy bills, improve worker productivity, 
increase worker retention and the well-being of building 
occupants. More, they can have a significant impact on the 
quality of life in their communities. As well, businesses that 
care about their environmental footprint find they have a 
competitive edge in the marketplace with the growing concern 
for the environment.
    However, significant and very significant barriers remain 
for small businesses that want to go green. I have an example I 
would like to share with you personally. Our firm is currently 
working with an entrepreneur in upstate New York on the design 
of the Worden Hotel, which is a small luxury boutique hotel in 
the heart of Saratoga Springs, New York. The client came to our 
firm because they wanted to be green, and they wanted a green 
building. Our conceptual design included many strategies, 
geothermal heating and cooling systems, green roofs, solar hot-
water heating, sequestered rainwater for flushing toilets, and 
on and on and on, similar to what the mayor talked about in the 
big new stadium that is being built.
    When the conceptual budget was completed, the client found 
they could not afford to retain many of those strategies and 
make their pro forma for investors work, even though we found 
other strategies to reduce costs, such as room sizes and other 
strategies. Although New York State has a very aggressive 
incentive program for energy conservation in buildings, it was 
not enough to offset the cost for the geothermal system and 
green roofs and other things, and the geothermal system has a 
10-year payback, but it can make tremendous difference in terms 
of energy consumption and environmental quality.
    This is a story that we see over and over again, and small 
businesses and nonprofits often cannot afford the initial 
capital investments to create high-performance buildings.
    There are numerous studies that show the initial cost of 
going green can be quickly recouped in the first few years of 
operation. There has been a challenge getting the message 
through a system where first costs are often the only things 
that the financial institutions see.
    With this in mind, I would like to offer three areas where 
the Committee and Congress can help small business remain at 
the vanguard of creating a more sustainable environment. First 
we need to do more to help small businesses get finances to 
build green. I am pleased to see that the Senate-passed energy 
bill contains provisions in the SBA to expand its programs to 
help small business become more energy-efficient. I hope this 
Committee can help ensure the energy legislation passed by the 
House includes similar provisions.
    Second, despite the benefits of energy efficiency, many 
small business owners are not aware what they can do to make 
their buildings green. With the technologies changing, there is 
a way--there has to be a way to educate them to do that.
    Finally, I believe that this Committee can also help small 
businesses lead the way by ensuring that Federal agencies that 
design and build buildings follow the law when it comes to 
hiring architects and engineers. The last 35 years the Federal 
Government has required that agencies procure architectural and 
energy services based on which firm is most qualified and not 
who is the lowest bidder. Thanks to this law, the Federal 
Government has benefited from the highest quality of design, 
and smaller firms have had much more of a level playing field.
    In recent years more and more agencies are circumventing 
this law by putting design services on GSA's competitive 
schedules and by bundling contracts in ways that give large 
corporations unfair advantages over small firms. At a time when 
we are looking to the Federal Government to make its buildings 
more efficient, the last thing we should do is lock out small 
design firms at the very cutting edge of sustainable design.
    Small businesses have always been at the forefront. With 
the help of this Committee we can lead the way in designing and 
building a more sustainable future.
    I thank you, Madam Chairwoman.
    ChairwomanVelazquez. Thank you.
    [The statement of Ms. Maxman may be found in the Appendix 
on page 61.]

    ChairwomanVelazquez. Our next witness is Bob Jones. He is 
the president of Robert Jones Homes, which specializes in land 
development and the design and construction of single-family 
luxury homes throughout Detroit.
    Mr. Jones is the 2007 vice president of the National 
Association of Home Builders. The National Association of Home 
Builders is a District of Columbia-based trade association 
representing more than 235,000 residential home building and 
remodeling industry members.
    Welcome.

   STATEMENT OF BOB JONES, PRESIDENT, ROBERT R. JONES HOMES, 
   BLOOMFIELD HILLS, MICHIGAN, NATIONAL ASSOCIATION OF HOME 
                            BUILDERS

    Mr.Jones. Thank you very much, Madam Chairwoman and 
distinguished members of the Committee. My name is Bob Jones. I 
am a home builder from Bloomfield Hills, Michigan, and I am the 
vice president and secretary of the National Association of 
Home Builders, NAHB. NAHB represents over 235,000 members, who 
employ millions of individuals in the home building, 
remodeling, multifamily and light commercial construction 
industry.
    I am here to talk about the success that our Nation's home 
builders, many of which are small businesses, have had in 
cultivating a progressive green building program that is 
producing sustainable, energy- and resource-efficient homes 
throughout the country, NAHB members build more than 80 percent 
of all new homes in the United States, and by the end of 2007, 
more than half of our members will be incorporating green 
building practices into the development, the design and the 
construction of these new homes.
    Because housing is such a major part of our Nation's 
economy, home builders have the potential to profoundly affect 
sustainability, conserve natural resources and preserve our 
environment.
    I am proud to say NAHB members are true leaders in the 
green building movement. We have been implementing green 
practices for over a decade. According to McGraw-Hill, about 10 
percent of the homes built in 2010 will be green homes, which 
is a major jump from 2 percent in 2006.
    Being green is more than being trendy. Green building means 
making an intentional decision to positively impact energy 
efficiency, preserve resources, and to reduce and recycle waste 
throughout the entire design and construction process and for 
the life of the home.
    NAHB took the lead in 2005 working with more than 60 
stakeholders, environmentalists, builders, product 
manufacturers and designers and developed agreed-upon criteria 
to guide builders on how to construct a green home. These model 
green home-building guidelines were developed for use by any 
builder. To date more than 100,000 green homes have been built 
in voluntary programs.
    Two dozen local homeowner associations have adopted 
programs based on these guidelines, and dozens more are in 
development. Some have already been endorsed by State and local 
governments. The net effect is thousands of homes are being 
built to green criteria.
    NAHB has proactively adopted a policy of promoting green 
building as a means of reducing greenhouse gas emissions. In 
fact, NAHB has partnered with the International Code Council, 
the preeminent authority for building codes, to produce and 
develop the first true national green building standard for 
residential construction. The standard will be accredited by 
the American National Standards Institution, which you may know 
by the term ANSI. It will be an industry-wide consensus-based 
and certifiable benchmark for all residential construction 
types, single-family, multifamily, remodeling and land 
development.
    The Committee that is developing the standard includes 
members from the United States EPA, the Department of Energy, 
the United States Navy, many State and local housing agencies, 
nongovernmental building organizations, small custom home 
builders and remodelers. Both members and the general public 
will have the opportunity to influence its development, and 
once published, the standard will periodically be reviewed and 
revised to ensure its rigor and integrity.
    Healthy competition in the green building market will only 
continue to drive its growth and innovation, as well as keep 
costs down for home buyers so that green homes are affordable 
and people can easily make the green choice. NAHB urges 
Congress to preserve competition in the market by keeping it 
free of mandates; to foster greater awareness by sponsoring 
education campaigns for consumers about the benefits of green 
construction; and extending and expanding the tax incentives 
for highly efficient new homes.
    NAHB is now developing a national green building program 
that will not only support the standard I mentioned earlier, 
but will also help State and local governments to implement 
green building practices. The housing industry's commitment to 
increasing energy and resource efficiency in home construction 
is demonstrated by the development of the national green 
building standard and program.
    On behalf of the Nation's home builders representing many 
small businesses I thank you. I thank you all for the 
opportunity to speak here today about our industry's advances 
in green building and our leadership in the green revolution. I 
will be happy to answer any questions, and certainly we will 
work with you in the future. Thank you.
    ChairwomanVelazquez. Thank you, Mr. Jones.
    [The statement of Mr. Jones may be found in the Appendix on 
page 66.]

    ChairwomanVelazquez. And now I recognize Ranking Member 
Chabot for the purpose of introducing the next witness.
    Mr.Chabot. I would like to introduce Mary Beth McGrew, who 
is a LEED-certified architect with 16 years' experience in 
working in private architecture and engineering firms. She 
currently works at the University of Cincinnati as the 
associate vice president of campus planning and design. The 
University of Cincinnati has over 16 million square feet of 
space and over 30,000 undergraduate students. There are five 
campuses, with the largest in the uptown area within the city 
of Cincinnati, and her department addresses the campuses' 
design standards, space management and allocation, programming 
and planning, capital planning, real estate and environmental 
graphics. And we welcome you here for your testimony here this 
morning.
    Ms. McGrew.

 STATEMENT OF MARY BETH McGREW, DIRECTOR, UNIVERSITY ARCHITECT 
       CAMPUS BUILDING DIVISION, UNIVERSITY OF CINCINNATI

    Ms.McGrew. Thank you. Madam Chairwoman, Congressman Chabot 
and members of the Committee, thank you very much for this 
opportunity to testify before you today on behalf of the 
University of Cincinnati's green building efforts and the 
relationship that these efforts have and will continue to have 
for small businesses. Small businesses can be benefited from 
being selected for services and products that meet our 
university's green specifications.
    Located in the heart of Cincinnati's uptown area, the 
University of Cincinnati is a first-tier research public 
institution with over 36,000 students, and it is the largest 
employer in Cincinnati's region.
    The university has made grade strides in our green building 
construction with all of our new buildings, and we are learning 
more and more each day that we can apply to OUR future design 
and construction and renovation projects along with the 
maintenance and operations of our facilities. We want the 
University of Cincinnati to be a healthy, pleasant and 
provocative place to live, learn and also a benefit to the 
small businesses in the region.
    Recognizing its environmental stewardship role, the 
university seeks to incorporate the concept of sustainability 
into its academic and research programs, the design and 
operation and maintenance of its buildings and landscape, and 
its organizational structure and management, while preserving 
safety and comfort.
    You have heard about some of the statistics. During the 
last 16 years, the construction at the university has resulted 
in over 48 percent of a transformation of that campus and its 
built environment. We now have a cohesive and coherent assembly 
of new buildings, renovated buildings, recreation facilities, 
improved residential environments, athletics and performance 
venues, and sculpted landscapes and plazas.
    Because of the great extent of our building efforts, and 
because, as the U.S. Green Building Council reports, the huge 
amount of energy use, the 37 percent of total energy use with 
buildings, 65 percent of the buildings with electric 
consumption across the country being responsible for 30 percent 
of the greenhouse gas emissions and 30 percent of raw materials 
used, 30 percent of waste output and 12 percent of potable 
water consumption, we considered embracing green construction 
for our buildings as the right thing to do for our campus and 
our campus community.
    Economically it should have paybacks in energy savings, but 
that was not the only reason we did it. It moves the university 
forward in the responsible use of our natural resources, and it 
is the responsible thing to do for our current citizens and the 
most important thing for our future citizens that we are in the 
business of educating.
    We see that society, business, and the environment and the 
economy are all interconnected. The university's physical 
campus has a role in the education of the campus community and 
in the incorporation of green building principles. It provides 
an educational opportunity for the community at large.
    The building industry, according to the U.S. GBC, 
represents the largest economic sector in the U.S. and the 
second largest manufacturing sector. Green building is very 
directly concerned with regionally specific issues, and so 
there are natural links to local and small businesses. Small 
businesses that make the materials green building use will grow 
as demand rises, and we have seen evidence of this already.
    In our projects, construction waste was recycled by local 
companies. Many materials used in the construction were 
required to be from a local and regional area. The site 
development required capturing of rainwater. We used that as 
irrigation for plants and landscaping. It also required 
knowledge of local methods for protecting the site during 
construction and the kinds of soils that are unique to our 
region. We support the city's transportation system by having 
negotiated the faculty, staff and students ride in the area for 
no cost to us.
    The university is involved in collaborations for the 
successful development and use of new technologies and process 
that contribute to better building efforts in all of our 
research efforts. So there are just a few of the opportunities 
for green building and local businesses and small businesses to 
link.
    Construction of green buildings at UC benefits small 
businesses in a number of ways. Small companies with the right 
knowledge, and this is a knowledge-based economy, can benefit 
from green construction practices. For example, at the time the 
recreation center at the university was being commissioned, 
that is making sure that all of the systems worked as they were 
designed to, our commissioning agent was actually a sole 
practitioner. Local businesses can supply green goods and 
services. With 36,000 customers we can significantly capture 
the marketplace.
    Contractors and construction companies have learned to use 
the tools of green building trade when they design, build, and 
help maintain the buildings for our institution.
    Another example is there is a need for a sports floor 
produced in part from our local region and to have solvent-free 
adhesives. One of our local flooring companies has developed 
just such a product, and that product was both local and green.
    Students. That is what we are all about, the students. They 
will live and enjoy the green buildings at UC. They will take 
higher expectations for sustainability with them when they 
leave the university and join small businesses. UC students are 
the future of small businesses, and their experience with green 
building should serve to advance sustainability efforts for 
many years to come.
    In closing, I would like to let you know our president has 
joined the President's climate commitment modeled after the 
mayor's climate commitment that the mayor from Santa Barbara 
was talking about.
    Thank you very much for this opportunity.
    ChairwomanVelazquez. Thank you very much.
    [The statement of Ms. McGrew may be found in the Appendix 
on page 73.]

    ChairwomanVelazquez. I believe that is a call for how many 
votes? Four. So I am going to start asking questions, and we 
will recess and come back.
    Mr. Jones, I would like to address my first question to 
you. You mention in your testimony that by 2007 more than half 
of the home builders members will be incorporating green 
practices in the development, design and construction of new 
homes. What kind of incentives are necessary to convince even 
more builders to construct green homes?
    Mr.Jones. I think at first when we were talking before 
about sticks and that approach to it, and then I agreed with 
the Congressman who said we are sort of past that entity. The 
main thing, I think, that is an incentive, number one, is 
competition. That, in my view--and I hadn't heard anybody 
mention that--in my view is one of the--certainly I know as a 
businessman, as a home builder that competition drives me in 
many instances.
    Secondly, I had the opportunity about 3 weeks ago to go to 
a reception at the Smithsonian with some of the tribal groups 
as well as many representatives of EPA were there, and I have 
to tell you and share with all of you that I could not mention 
green building without having three or four or five people 
gather around me just at an informal reception in terms of 
their interest. It is what I would call hot, the green 
building, and I think my response is as I said to you, Madam 
Chairwoman.
    ChairwomanVelazquez. Mr. Jones, can you talk to us about 
how do we get more contractors to become aware of Federal 
programs or incentives that encourage green construction?
    Mr.Jones. Certainly one of the ways of just what you are 
doing here today in terms of the fallout that hopefully will 
come from this.
    Secondly, you may know in my last comment, my last half 
sentence, we not only thank you for being here, but even more 
importantly we want to continue serving you in any way we can 
to get this through.
    Thirdly, in terms of across the country, it is really a hot 
item. It is hot in terms of not only the builders, obviously, 
from our statistics, but also from the consumers' perspective. 
And so I just think--the comment was made to me, and I don't 
know the year, whether it be by 2010 or 2015, you will not hear 
of green building. That sounds like somewhat of an outlandish 
statement, but I really think that it is coming on that quickly 
that what will happen anymore than any builder or anyone in our 
profession or related profession hears anymore that, gee, this 
builder does code-approved houses. It will just be accepted 
that it is green built.
    ChairwomanVelazquez. Can you talk to us about the fact that 
you believe, or maybe some of the members of the home builders 
believe, that you need to create your own separate 
certification, separate from LEED? Can you talk to us about why 
it might be necessary for home builders to establish their own 
industry certification?
    Mr.Jones. Yes. Let me give you an example that hits 
everyone that--you at the dais, but also people in this room 
and people everywhere, that we don't think it should be 
mandated, and that is part of their program. We think it almost 
must be voluntarily. The reason my first comment about why is 
that--let's think of all of us. Many of us are parents, many of 
us have children that will be moving into new homes or moving 
into homes period, and we want it so that there is various 
levels, there is not just one level. There is a level in--our 
approach to it is bronze, silver, gold. We are developing, as I 
mentioned, standards because we want the ability that someone 
wants to go green, someone wants to have a green residence, 
that there is various levels. So when you start talking about 
affordability, and we talk about our own children, that they 
have to have something we believe that is affordable yet have 
both worlds, have the beginning of the green building. That to 
me is extremely important, the affordability issue for our 
children.
    ChairwomanVelazquez. Do you want to make any questions now?
    Mr.Chabot. Thank you, Madam Chair. I will go ahead and ask 
mine quickly, if I can. I think I will begin with you, Ms. 
McGrew, since you are from Cincinnati and all.
    Relative to--
    ChairwomanVelazquez. Not being biased.
    Mr.Chabot. Not being biased at all.
    Approximately how much did it cost to build the Steger 
Center green versus how much it could have cost in traditional 
construction, and how quickly would you expect to get a 
considerable return back on that investment?
    Ms.McGrew. Well, our buildings are designed by--are very 
well-designed buildings, and we don't believe that it costs us 
any more to design them green.
    At the time the Steger Center was done, it may have cost 
the architecture firm a little bit more to submit the 
paperwork, although the council is working hard on making that 
not be an expensive proposition for the firm. We did not 
perform so many radical techniques to the building that it 
significantly contributed to the cost.
    Mr.Chabot. You also mentioned in your testimony 
construction materials. Were you talking about when you tore 
down a building, the materials were used in other buildings in 
the community?
    Ms.McGrew. I was referring to both. We tore down the 
parking structure when we started construction on the medical 
center, and that concrete was a significant recycling effort 
for a local company.
    Our contractors are very good at recycling waste during 
construction. Every piece of glass comes with packaging 
material, and there are volumes of waste generated in new 
construction. That, too, is required to be recycled on site. I 
think Mr. Jones alluded to that as well.
    Mr.Chabot. Thank you.
    Mr. Jones, we have votes, but I want to emphasize again 
what you talked about, mandates and the way this ought to be 
done because it makes business sense to do it, as opposed to 
requiring home builders or anybody else that you have to do it, 
how important that is. And you also mentioned, I believe, the 
tax incentives, how important it is that when we have tax 
incentives, when we here at Congress pass laws where there is--
we are trying to make folks in the private sector go with green 
building because we are helping out in the Tax Code, but if we 
make the tax changes go away in a couple years, you can't plan 
on that long term. Could you discuss those two issues?
    Mr.Jones. Yes, sir. First of all, the requirement to do it 
a certain way, the way we are looking at it is the format for 
it, the format, to use your words, that you used in relation to 
the tax incentive, that we want to make sure it is sustainable. 
Now, I don't mean sustainable in terms of the green building, 
but sustainable in the sense of that as how the--our children 
and in the following generations, that this is sustained in 
terms of the green building and hopefully reaches the highest 
level. We think it is inappropriate to have it mandated, much, 
sir, as you alluded in the other panel in terms of that kind of 
approach to things, and we appreciate your comments in that 
regard.
    In terms of the tax incentives, again, we are on the same 
wavelength, so to speak. From the counting on it in terms of 
the green building year to year, it will naturally in that 
instance begin to take charge of itself because of the demand 
that already exists, but in terms of the tax incentives, that 
will help, obviously, our industry.
    I mentioned in my original comments to everyone that 80 
percent of all new homes in the United States are built by NAHB 
members. It is important to understand that the 80 percent 
represents home builders that build less than 10 houses a year.
    ChairwomanVelazquez. Mr. Jones, we could continue, but we 
have only 5 minutes to go to the floor to vote. The Committee 
will stand in recess, and we will resume after the last vote.
    [Recess.]
    ChairwomanVelazquez. Mr. Chabot, you may continue asking 
questions.
    Mr.Chabot. Ms. Maxman, you mentioned about the 70-room 
hotel that was going to be built, and they ultimately didn't 
build it because the cost didn't work out--
    Ms.Maxman. No, they are going to build it. They won't be 
able to do all the green strategies.
    Mr.Chabot. Most of the project was that, and my point was 
going to be this: Is there--you aren't a person, or are you--do 
you believe it should have been mandated by the government that 
they had to do certain things regardless of what the cost would 
have been, or do you think it is appropriate incentives, but 
not necessarily mandates?
    Ms.Maxman. It depends on what it is. There could be 
mandates at certain levels. I don't think mandates in a large 
scale would be really a worthwhile thing. I think it is really 
more the carrot and the stick kind of thing.
    A couple of examples of different things. First of all, in 
the case of this hotel, the big problem there, the up-front 
costs, if we can figure out ways to finance up-front costs, 
whether it be in the private sector or within the government, 
to allow for these incentives. If you put in a geothermal 
system, the payback can be 5 to 10 to 15 years. It is a 
worthwhile thing to do, but many small businesses do not have 
that capital outlay that they can commit to it. If there is a 
way to finance that or to give them some financial incentive. 
NYSERDA, the New York organization--you probably know about it, 
Chairwoman--they do have some incentives, but they are not 
enough to really cover these kinds of costs.
    The other thing is the stick issue, using an example of 
what happens in Atlanta, Georgia, with stormwater. You are 
charged--they have a combined sewer system, and you are charged 
a very high fee now for putting stormwater into the system 
because they have to purify all of it because it is combined 
with the sanitary system.
    Georgia Tech University has developed this entire new 
strategy where they are in 15 years never going to have one bit 
of stormwater into their system by all of these wonderful 
methods. It will pay back in time easily. And more people are 
going to start to look at how they can recharge water basins 
and not put stormwater into our stormwater systems. So those 
are examples. That is in a way a mandate because it is, you 
know, an economic mandate in a way.
    I think that the creative financing is really where I think 
these things should be happening, and tax incentives, and low-
interest loans and things like that. That is where I think we 
have to really start working on it and making a difference and 
really maybe--I don't know, Fannie Mae and Freddie Mac, whether 
you all can do things with them, but I think that is where 
these things are really going to happen.
    Mr.Chabot. Thank you very much.
    Mr. Genachowski, you represented your support for economy-
wide carbon emission limitations. While it is true it would 
create a boon for the green products and services industry, 
have you analyzed how such restrictions would affect other 
industries; and wouldn't really incentives such as those 
through the Tax Code provide perhaps a more realistic approach 
to limiting carbon emissions, or should that be a part of it?
    Mr.Genachowski. It is a good question. An overall national 
strategy for addressing a variety of issues on the table will 
have to incorporate many solutions. I think the point you have 
been making consistently today about the need for small 
businesses to have certainty we agree with. The worst-case 
scenario is one where, especially for small businesses, they 
start going down a road to discover that the rules are 
different. One of the things we hear from our small business 
customers, we would rather know what the rules are than not and 
find out later.
    Is it possible on climate issues to have broad, national, 
clear goals that are implemented in flexible ways with respect 
to small businesses? We don't really consider ourselves experts 
on the overall climate change issue.
    On the issue of providing financial incentives, loan 
guarantees, flexible loan terms for small businesses, we do 
know more about that as an institution and are very excited 
about that. New businesses like ours tend to be founded on some 
combination of rigorous analysis and anecdote. One of the 
anecdotes that drove the founding of this bank was a local 
small business person who wanted to start a restaurant as part 
of one of the national franchise chains, and he wanted to bill 
the company and create a few jobs, but he wanted to do it in a 
way that was green. So typically what will happen is a 
franchisee will decide to do it, will get the plans and 
financial model from the chain, go to a bank which will have 
seen these before, and they say, we understand; boom, the loan 
is approved.
    He said, look, I would like to do this in a green way, I 
would like to make some changes with respect to energy, I think 
it is the right thing to do. I also think my utilities bills 
will be cheaper down the road, and I think it will pay for 
itself. He couldn't get the loan for the extra amount. That 
struck us as economically illogical, because the payback was 
there, the business model was solid, it was one of the things 
that lead to a bank willing to say, we understand the business 
models, and we are willing to engage in this loan.
    There will be some loans that new businesses will pursue 
that will be harder to justify on strict economic grounds, and 
the kinds of things this Committee is considering with respect 
to SBA loan guarantees are extremely helpful. It allows a bank 
like ours to say, this is great, we will share the risk with 
the Federal Government here on the portion of this that 
supports public policy but is a little bit riskier for the 
future. It makes a difference in the market. So we do think the 
SBA program will make a real difference, and if it can be 
expanded to more business categories, we think we can write 
more loans in the area.
    Mr.Chabot. If I have time for one more question?
    ChairwomanVelazquez. Yes.
    Mr.Chabot. Mr. Seo, you mentioned some products or the 
company Procter & Gamble, which also happens to be located in 
Cincinnati, and we love Tide and Pampers and Crest and Gillette 
and all products and brands that Procter & Gamble is engaged 
in, but that is irrelevant. I just wanted to throw that in 
there.
    The question I had--and first of all, my congratulations on 
starting a business at 12 years of age. That was very 
impressive, and to carry on since that time is really quite 
inspirational for a lot of people.
    Could you discuss a little bit, you know, being green, 
whether it is building or products or the rest, versus, you 
know, job creation and business, and kind of the idea being in 
some people's minds, they think you can be one or the other, 
but you can't really be green and for growth and more 
employment and new jobs and all that kind of stuff. I don't 
agree with that, but there is that mind-set out there.
    Could you discuss that issue?
    Mr.Seo. I think the interesting part about creating a 
business or turning your business into a green business is that 
you are actually creating a level of trust with your customer, 
sort of the level of trust you would have with your doctor. You 
trust your doctor on a certain level, something you sort of 
have to agree to or believe in.
    I think when your business adopts green practices, it shows 
your potential customers that you are more than about a profit 
for your business; you also have a concern for the community, 
the environment, the planet. You sort of gain their trust for 
the long term.
    So what we have seen in one of our clients who was a hotel 
chain, one suggestion was when someone shows up in a hybrid 
car, we would waive the valet parking fees. A lot of customers 
felt this was a great reward for doing the right thing, but 
with customers it became a great travel tip also for people to 
stay at the hotel, to rent hybrid cars at the airport, and it 
actually increased their business, too. So it is win-win if you 
market it the right way.
    Mr.Chabot. Thank you. I yield back my time.
    ChairwomanVelazquez. For the record, I have a hybrid car.
    Mr. Genachowski, you talk about the financing contained in 
the legislation we passed here. I would like to ask you of the 
loans that the New Resource Bank provides, roughly what 
percentage are financed through SBA programs?
    Mr.Genachowski. I will have to get back to you on the exact 
number.
    Mr.Genachowski. My understanding is that we are writing 
some 504 loans now. We haven't written 7 loans yet. We would 
like to.
    Part of it is a lot of the businesses that we are seeing in 
our first market are small businesses that probably don't 
qualify right now under the terms, but that would qualify under 
the bill as proposed, and certainly if it could be expanded to 
cover more categories of business.
    ChairwomanVelazquez. And do you think that if we can 
provide financing to SBA loans, if you could offer better 
terms, financing terms, that will facilitate the growth of 
energy-efficient businesses?
    Mr.Genachowski. We absolutely think that.
    Responding to another question, how do we get the word out 
about this, one thing the Committee in Congress can do is 
leverage small businesses like ours who would like to get the 
message out. So we would love to have the tool of an expanded 
SBO--SBA loan program. We would put signs up in our banks and 
use it in our marketing materials because we are excited about 
sharing the risk with the Federal Government on promoting some 
of these loans. We see it as good business. We can write more 
loans if we share the risk with another party.
    ChairwomanVelazquez. Mr. Jones, the Energy Policy Act of 
2005 included tax incentives for builders and homeowners who 
put in energy-efficient appliances and materials. It obviously 
has been important to your industry and helped many homeowners. 
Unfortunately, of the $8 billion in tax breaks in that bill, 
only about 6 percent went towards energy efficiency and 
renewable energy. Would you agree that directing more of these 
tax incentives to small businesses should be a priority for 
this Congress to address the issue of energy consumption?
    Mr.Jones. Yes, Congresswoman, I would. I have a note here 
that the Energy Policy Act of 2005 is one important way to help 
smaller businesses who may not be able to absorb costs as 
easily as larger builders. Now, that is sort of an 
oversimplification.
    May I add one other thought?
    ChairwomanVelazquez. Sure.
    Mr.Jones. One of the things I was thinking in terms of 
incentives, that Congress could offer grants for green building 
training, training of builders, but I wouldn't limit it--I 
think someone made the comment before, I wasn't sure from the 
dais there, they were thinking about it for a particular group. 
We think it should be for a variety of groups, obviously the 
National Association of Home Builders; there are LEEDs and 
other entities.
    We are in a position, the National Association of Home 
Builders, because of our size and involvement, we would make 
our own standard, but we are inviting everyone. I think that is 
what I sort of want to leave you with today philosophically, 
that we--as I said before, we want to continue to participate 
with this Committee, if you will have us, for our input. I also 
thought if the Committee would feel comfortable with this, we 
might send additional notes, if that would be okay with you.
    ChairwomanVelazquez. Yes. Also we passed legislation here 
to reauthorize the small business development centers. It is a 
national network through SBA. One of the important things they 
could do is educate the small businesses in terms of energy 
efficiency throughout the country.
    Mr.Jones. It would be very helpful to continue that.
    ChairwomanVelazquez. Because of the emergence of eco-
friendly options, such as low--soy-based paints, low-flush 
toilets, compact fluorescent light bulbs and organic cleaning 
supplies, American consumers are better able to make 
environmentally conscious choices. Despite the success of these 
products, does cost remain a barrier for many purchasers?
    Mr.Seo. I think it is a misconception that green products 
cost more. Part of my job through our television show and 
magazine columns is to identify the products and services as 
both ecological and economical. The good thing about a boom in 
the green industry is that there is competition, and there are 
new companies making products, and with competition we 
discovered our prices have come down significantly. In some 
cases a compact fluorescent light bulb is cheaper when bought 
in quantity than a traditional incandescent light bulb now. So 
I think the more we can educate and point people in the right 
direction, the more people will see that saving money can 
actually be saving the environment, too.
    ChairwomanVelazquez. Cost will be less of an issue if we 
can get more suppliers entering the market.
    Mr.Seo. Absolutely. I think it is also identifying who 
these suppliers are. So I feel the tipping point or cultural 
shift for green products is just a few years ago.
    ChairwomanVelazquez. What lead you at age 12--what really 
attracted you; what was in your mind?
    Mr.Seo. The spark. I happen to share the same birthday as 
Earth Day, and it is an unusual holiday because it is a lot of 
gloom and doom. It is about the rain forest burning down and 
the ozone layer disappearing. At 12 you are impressionable. I 
believed everything that I read, and I assumed back in 1989 
that the world would be over by the year 2000, so I started 
Environmental Group as my 12th birthday wish, and my parents 
gave me $23, and I started a group.
    ChairwomanVelazquez. Great.
    Ms. Maxman, since the inception in 1994, LEED has been a 
standard for certifying green buildings. Your firm has been 
involved in a number of products that has used this 
certification. How effective do you think current LEED 
standards are in designating green buildings?
    Ms.Maxman. That is a great question. I started doing green 
buildings before LEED was even on the radar screen, so we sort 
of do green buildings and then apply the LEED standards to 
them.
    I think LEED has been phenomenal in terms of raising the 
awareness of green buildings. People are competitive, and so 
you have universities that say, we have to have a LEED platinum 
building, or, we have to have a LEED gold building. And I say, 
wait a minute, we are just going to design a really good 
environmentally sensitive building. If it is a really good 
building, it will be a LEED building.
    I think it is fabulous in terms of what it has done to 
raise awareness. I do think right now it is going through some 
iterations and changes. I think it needs to start looking at 
carefully the quality of point systems and really be much more 
kind of qualitative in terms of how they do it instead of 
quantitative so that you can't produce a bad building that is a 
LEED-graded building.
    ChairwomanVelazquez. Where do you need improvement in 
addressing the concerns of architects?
    Ms.Maxman. I think from my point of view, and I have said 
this to the Green Building Council, and it is a personal point 
of view, it is not the AI point of view at all, I feel that 
they need to address their value system. When you can get a 
certain amount of points for getting a bike rack, the same kind 
of points for doing something much more significant, that is 
where they have to figure out how to do this to really make 
sure that people have a holistic sense.
    For example, how could you ever have a LEED-certified 
building in Texas if it doesn't conserve water? And yet you 
could, by the way that you get these points. So I think you 
have to look at what is the big idea. Every project there is 
something that is the most important thing that you have to do 
that has to do with where you are, the context of the building 
and where it is placed. Not everything is equal. So in Texas 
you must conserve water.

    ChairwomanVelazquez. Thank you.
    Ms. McGrew. Sorry. In terms of constructing the student 
center and other parts of the campus, did you essentially limit 
the number of businesses who were able to work? Basically my 
question is did you find that many firms were not familiar with 
green construction and unable to bid on the project?
    Ms.McGrew. I don't know the answer to that specifically. I 
do know that there was more work on the part of the architects 
to assist the construction early on. And then over the 16 years 
as LEED became more familiar, especially on major project 
construction, it was not as big of a problem. That was more the 
means and methods.
    And since you asked me about LEED, may I clarify one thing? 
Congressman Chabot, you asked me about the cost. On the Steger 
Center we didn't implement any significant technical issues 
that caused an increase in cost, but I would be misleading if I 
didn't say on other projects we did; for example, to put in all 
the underground piping to collect the stormwater. We expect to 
get a payback from that in terms of water conservation and in 
our medical school as well. Those energy saving costs are 
significant. So we are all--balancing those to report on them.
    But in answer to your question, I don't know that we really 
eliminated people. Our specifications, because we are a public 
institution, are open enough to invite different kinds and 
different companies. So I don't recall any complaints.
    ChairwomanVelazquez. Well, no. It is just to see how--if 
there weren't small businesses who were able to participate or 
compete because of the requirements.
    Ms.McGrew. It would be a very good question to ask, and it 
would be a very good question to ask a lot of the local 
contractors.
    ChairwomanVelazquez. Sure.
    Ms.McGrew. I think early on they might have been a little 
bit more intimidated than they are now since it is so common.
    ChairwomanVelazquez. Mr. Jones.
    Mr.Jones. Thank you.
    I would like to make a comment. First of all, typically--I 
want to use the word "typically"--LEED is aimed, quite frankly, 
at high-end type, whether it be builders, or obviously their 
reputation has come from the high end, as has been mentioned, 
whether it be hotels, whether it be those kind of examples.
    And then I would like to add also, and this we got from the 
USGBC council, that they estimate that a LEED home--let me 
underline home, but that is the business we are in, residential 
homes--could add 12,000 to 15,000 to the cost, just for your 
information.
    Ms.McGrew. May I comment on that?
    ChairwomanVelazquez. Yes, Ms. McGrew.
    Ms.McGrew. I wanted to clarify the high end. I think it is 
true. High end makes me think of expensive and fancy, and I 
think maybe it is a matter of size that the LEED certification 
system--if a building is 20,000 square feet and over, at 
least--and, Susan, you can correct me, that is kind of in the 
architect's language. If it is 20,000 square feet and over, 
there is enough mechanisms in place that it is not a huge 
burden. For smaller structures, the system wasn't designed to 
be as accommodating to those, and I think rightfully so. The 
U.S. Green Building Council went after the buildings that used 
the most energy, and those are the big ones. I just wanted to 
clarify that.
    Mr.Jones. I think that is absolutely true.
    ChairwomanVelazquez. Okay. My last question--I wanted to 
address it to Ms. Maxman, but if there is any other witness who 
would like to answer it.
    At present, who do you feel is driving the advancement of 
green buildings, building owners, designers and builders, 
government, or the public in general?
    Ms.Maxman. That is a really good question. I truthfully 
think it is the building owners. And I think it all started 
with LEED. I really do. You know, because I--you know, back in 
1991, when I started on this path to doing green buildings, I 
mean, there were none then or very few. And you know--and I was 
the one who was always driving it to my clients and saying, 
look, and making them aware of it and everything. But now, you 
know, I think everyone knows about LEED, and truthfully I do 
feel that it started with the institutions and the nonprofits 
that were the--they were the first wave of interest, because, 
you know, they keep their buildings longer; they really do kind 
of, you know, always have in mind the greater good, et cetera, 
and so on, and the examples.
    And then slowly, you know, now the commercial end of it has 
taken place, because the marketplace is dictating it, because 
of what you are saying--what we are all seeing is this green 
tide. So people realize that there is a great advantage, and 
the developers and the builders and so on realize there is a 
big advantage to being able to say that I am a green building 
and so on, and I am a LEED-certified building. A lot of that 
has to do with certification. A lot of clients want to be 
certified so they can put the plaque on the wall and say, I am 
a LEED building. And I don't think it is the government at all. 
I really don't. In the case of GSA or something like that or 
the Navy or something, they obviously--they are the ones who 
have determined--and I think that architects introduced that to 
the Navy and to GSAand so on. I think that we really were 
responsible for those agencies coming on board.
    ChairwomanVelazquez. Any other members of the panel?
    Mr.Genachowski. I agree with Susan that the demand is 
coming organically, so to speak. It is coming from building 
owners and the public for a whole series of reasons. But there 
is more demand than there is ability to actually build some of 
the green projects. This is where the kind of work that the 
Committee is doing in helping whether it is individual 
homeowners, small businesses or others act on their desires by 
helping bring together businesses and capital so that the 
projects can go forward. I think there is less of a demand 
issue now than there is of supply of capital issue.
    Ms.Maxman. I absolutely agree with that.
    Mr.Jones. I just think the Committee might take into 
consideration I think there is two separate entities we are 
talking about. One, when we talk about buildings, we tend to 
think in terms of commercial, of large--when Ms. McGrew said 
about 20,000 square feet, well, I don't know too many houses 
that are 20,000 square feet, okay? So I would just like you all 
to make that distinction because I think in--as I said in my 
earlier testimony that in the past 7 years our industry has 
done 100,000 homes green, and so I just think--I think it is a 
combination of what is causing it to move, as your good 
question indicated.
    ChairwomanVelazquez. Any other members? Okay.
    So Mr. Chabot.
    Mr.Chabot. Thank you. I will try to be brief.
    Ms. McGrew, one final question, maybe two. The one thing, 
relative to, say, UC's campus, University of Cincinnati, it is 
obviously essentially landlocked, and there are always 
challenges when you are building in an area as opposed to out 
in the suburbs or a more rural area. Does that also affect when 
you are trying to build something green, when you have more of 
a confined area that you are dealing with? Are the challenges 
perhaps a little bit greater, and do you have to be a bit more 
creative or--
    Ms.McGrew. I don't know if it is because it is green, but 
it is certainly much more challenging to build in an urban 
environment, and ours is one, and it is landlocked. We also 
think that is part of being green. The denser you are, the 
easier it is to be green and to access public services and to 
link with our city. So while it is a challenge for space, it is 
also an opportunity, and we are surrounded by so many 
businesses that can talk to each other, so there is a nice 
network. So I think it is a balance.
    Mr.Chabot. Okay. And then the other question somewhat 
related. Using the DAAP building as an example, which is--for 
those that aren't familiar with it, it is, shall we say, 
creative, unique, very few right angles.
    Ms.McGrew. Our example of indeterminate space is what I 
tell people.
    Mr.Chabot. My daughter is a graduate of the program there 
and got a very good job on her own and is doing very well. But 
in any event--and it is one of the best programs in the country 
for what it does. She is in graphic design. But the building is 
very unusual in the way it, you know, appears. And so is the 
Vontz building, which I also think is part of the university. 
Isn't it down the street?
    Ms.McGrew. Yes, it is. It is our east campus, but it is 
part of our medical campus.
    Mr.Chabot. And it is, shall we also say, very unique. And 
not being one who considers himself to be terribly 
knowledgeable about what is artistic and what is not, I am not 
going to weigh into, you know, what I think about those 
particular--
    Ms.McGrew. Our buildings are educational in nature. They 
teach you to think about space.
    Mr.Chabot. They really do. So my question is this: With 
those two buildings in mind--and when those were built, I think 
those were built more from what we are talking about here 
today, kind of from the green building aspect, but more from 
the creative artistic with that kind of vision. Is that now 
something that is combined together where one can be creative 
in the looks? Maybe, Ms. Maxman, not being familiar with these 
buildings, but knowing--if could you envision in your mind--you 
probably can't because these buildings are very unique.
    Ms.McGrew. I think those are the two most photographed 
buildings on campus. And I am glad you brought that up, because 
early on when the campus set about to change its image, those 
two buildings were--the green initiative was not big on campus, 
so those two buildings did not have the same set of criteria by 
which they were judged as the last buildings and our current 
medical center on our academic health campus. So you are 
correct that those two buildings--that was not part of the 
criteria by which they were judged.
    Ms.Maxman. But I think what happens in architecture is we 
have the star architects, and we have the star buildings, and 
we have these pieces of sculpture, and then we have buildings 
that are built for people. And I don't think that they are 
exclusive of each other. I think many star architects, quote/
unquote, are designing green buildings now. But I think that, 
you know, people who are truly green building designers are 
people who think about how people like those buildings, how 
they live in those spaces, and how to conserve as many 
resources as possible so they don't do frivolous things. But 
you can still do, you know, a great work of art, and it can be 
a green building.
    Mr.Chabot. That is what I was asking.
    Ms.McGrew. And I think our more recent examples on campus, 
and this is not by any means a criticism of our more early 
examples, but our more recent examples are a little more 
holistic in their approach.
    Mr.Chabot. Thank you very much. This was a very good panel.
    ChairwomanVelazquez. Thank you very much. We are all very 
grateful for your participation. We know some of you have 
traveled from across the country, and this has been a very 
interesting panel. And the bigger picture here is how can we 
reduce energy dependency in our country? And we all know that 
small businesses are the innovators, and they are the drivers 
of our economy. How can we come up with legislative solutions 
to the many problems that small businesses are facing in 
accessing capital and continue to do what they do best, and 
that is creating jobs for our economy.
    So I ask unanimous consent, Members have 5 legislative days 
to enter a statement into the record.
    ChairwomanVelazquez. And with that, we recess.
    [Whereupon, at 12:55 p.m., the Committee was adjourned.]

</pre></body></html>
